               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




         City Delivery – Excess Routes

                       Audit Report




                                              June 19, 2012


Report Number DR-AR-12-002
                                                                            June 19, 2012

                                                        City Delivery — Excess Routes

                                                          Report Number DR-AR-12-002




IMPACT ON:
City delivery operations.                    2 years. This audit also identified assets
                                             at risk totaling $45,912 in two delivery
WHY THE OIG DID THE AUDIT:                   units due to inadequate asset
To assess districts using fewer carrier      safeguards. Management immediately
street hours than projected. Carrier         initiated corrective action on these
street time (or street hours) is time a      security matters.
carrier spends delivering mail and not in
the office. Routes have a base or            WHAT THE OIG RECOMMENDED:
projected street time that is, on average,   We recommended that managers in the
5 to 6 hours. When a route’s actual          10 districts eliminate 33 excess city
hours are under its base street time, the    delivery routes and reallocate the
time is referred to as ‘less than            assigned delivery vehicles to rural
projected.                                   routes. We also recommended that the
                                             10 district managers continue to review
WHAT THE OIG FOUND:                          those delivery units consistently using
Opportunities exist to improve street        fewer than the projected street hours
efficiency in districts using fewer than     and make appropriate route
the projected carrier street hours. In the   adjustments, eliminations, and
10 districts reviewed, we found more         consolidations.
than 500,000 street hours were
projected than needed during fiscal year     WHAT MANAGEMENT SAID:
2011. This created an excess capacity        Management in all 10 districts agreed
of 33 city routes and vehicles. Excess       with the recommendations, findings, and
city routes exist because some               monetary impact. Management plan to
managers are not concerned with              take corrective action by June 2013.
locations using fewer than the projected
hours and routes are not always              AUDITORS’ COMMENTS:
eliminated or consolidated. By               We consider management’s comments
eliminating the 33 city routes and           to be responsive to our
transferring vehicles to rural delivery      recommendations.
operations, the U.S. Postal Service
could reduce rural delivery costs by         Link to review the entire report
$250,110 a year, or $500,220 over
June 19, 2012

MEMORANDUM FOR:   TIMOTHY R. COSTELLO
                  DISTRICT MANAGER, ALABAMA DISTRICT

                  DARRYL K. MYERS
                  DISTRICT MANAGER, APPALACHIAN DISTRICT

                  KEVIN MCADAMS
                  DISTRICT MANAGER, BALTIMORE DISTRICT

                  TIM VIERLING
                  DISTRICT MANAGER, FORT WORTH DISTRICT

                  CHARLES K. LYNCH
                  DISTRICT MANAGER, GREATER BOSTON DISTRICT

                  MARK MARTINEZ
                  DISTRICT MANAGER, NEVADA-SIERRA DISTRICT

                  TODD HAWKINS
                  DISTRICT MANAGER, NORTHERN OHIO DISTRICT

                  GERARD AHERN
                  DISTRICT MANAGER, SANTA ANA DISTRICT

                  DAVID J. DILLMAN
                  ACTING DISTRICT MANAGER, TENNESSEE DISTRICT

                  FRANK J. CALABRESE
                  DISTRICT MANAGER, TRIBORO DISTRICT




FROM:             Robert J. Batta
                  Deputy Assistant Inspector General
                   for Mission Operations

SUBJECT:          Audit Report - City Delivery – Excess Routes
                  (Report Number DR-AR-12-002)
This report presents the results of our audit of city delivery excess routes in 10 districts
(Project Number 11XG047DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director,
Delivery, or me at 703-248-2100.

Attachments

cc:    Dean J. Granholm
       Elizabeth A. Schaefer
       Philip F. Knoll
       Vice Presidents, Area Operations
       Corporate Audit and Response Management
City Delivery – Excess Routes                                                                                      DR-AR-12-002



                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Excess Routes ................................................................................................................ 2

Other Issues .................................................................................................................... 4

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objective, Scope, and Methodology ............................................................................ 7

   Prior Audit Coverage ................................................................................................... 8

Appendix B: Monetary Impact ......................................................................................... 9

Appendix C: Excess Routes and Vehicles .................................................................... 10

Appendix D: Management’s Comments ........................................................................ 11
City Delivery – Excess Routes                                                                           DR-AR-12-002




Introduction

This report presents the results of our audit of city letter carrier street management
focusing on excess routes (Project Number 11XG047DR000). Our objective was to
assess districts using fewer street hours than projected.1 See Appendix A for additional
information about this audit.

The U.S. Postal Service faces the most difficult operating period in its 235-year history.
Mail volume in fiscal year (FY) 2011 declined by 3 billion pieces to 168 billion, dropping
total mail volume to levels not seen since 1992. Since 2007, mail volume has dropped
by about 44 billion pieces. In contrast, delivery points have increased by 2,390,741
since 2008.2 The Postal Service must improve street management to effectively reduce
costs while facing financial loss from declining mail volume. Carrier street time is when
a carrier is delivering mail and not in the office. Routes have a base street time that is
also called their projected time. When a route’s actual street time is less than its base
street time, the time is referred to as less than projected. When a route actually uses
fewer street hours than the projected, a negative street variance occurs.3

Conclusion

Opportunities exist in districts using fewer than the projected street hours.

   In the 10 districts reviewed, we found 500,000 more street hours were projected
    than used or needed during FY 2011. These hours were identified as future
    opportunities to reduce the route structure in the reviewed districts, although the
    districts have reduced many routes over the last several years.

   Despite the aggressive efforts of some districts to reduce excess capacity,4 these
    10 districts had significant negative variances over the last 3 years (FYs 2009
    through 2011), creating an excess capacity of 33 city routes5 and vehicles6 at the
    time of this review.7

1
   When a route actually uses fewer street hours than projected, a negative street variance occurs. While this variance
can fluctuate daily based on several factors, an overall negative street variance over the course of a year indicates
that excess capacity exists.
2
   City delivery is responsible for 1,097,020 of the 2,390,741 increase in possible deliveries from FYs 2007 through
2011.
3
   For example, if a route is projected to have 6 hours of street time, but the route is completed in 5 hours and
30 minutes the route would have a negative variance of 30 minutes.
4
   Santa Ana District reduced more than 600 routes in the last 3.5 years.
5
   The Postal Service business strategy, Delivery Results, Innovation, Value and Efficiency (DRIVE), has an initiative
titled Delivery Optimization. The strategy is to optimize carrier routes by reducing and eliminating office time and
adjusting (reducing) the number of routes.
6
   Though there were more than 500,000 unused hours, we only identified routes from delivery units with enough
excess capacity over the course of FY 2011 to account for a full excess route (see Appendix C).
7
   We calculated the 33 routes for FY 2011. The Joint Alternative Route Adjustment Process (JARAP) process did not
end until February 2012.
                                                              1
City Delivery – Excess Routes                                                                              DR-AR-12-002



Excess city routes exist because of the rapid decline in workload along with changes in
the workload due to implementation of automated systems. Eliminating the 33 excess
city routes and transferring the associated vehicles to rural delivery routes could reduce
rural delivery equipment maintenance allowance (EMA) costs by a $250,110 annual
discounted savings or $500,220 over 2 years.

We also identified assets at risk totaling $45,912 at two delivery units due to inadequate
asset safeguards. Management immediately initiated corrective actions on these
security matters.

Excess Routes

Our analysis indicated that excess capacity existed in the 10 districts. For example,
FY 2011 data indicated that 10 districts had a negative street variance, using 530,703
fewer hours than projected. Regular city routes are established at 8 hours per day, with
about 2 hours in the office and 6 hours for street delivery. We analyzed FY 2011 route
data and determined that, of the 10 districts reviewed, 82 percent were projected at
using fewer than the established 8 hours per day. In fact, these routes had actual route
times averaging 7 hours and 44 minutes per day.

As a result, we identified delivery units in these districts with excess capacity. In fact,
they had excess capacity over the course of FY 2011 equivalent to at least a full route.8
In these districts, we found 33 excess city routes that management could eliminate (see
Table 1).

      Table 1. U.S. Postal Service Office of Inspector General Analysis of Negative
                         Street Variance and Routes in FY 2011
                                                                                     Average
                                                                                      Actual           Excess
                                                                                    Total Time        Routes &
                             Projected           Actual             Street          Per Route         Delivery
           District         Street Hours      Street Hours         Variance          in Hours         Vehicles
     Santa Ana                 7,716,590         7,614,281          (102,308)           7.45             99
     Triboro                   4,777,330         4,699,682           (77,648)           7.76              2
     Greater Boston            7,203,144         7,135,617           (67,527)           7.74              5
     Tennessee                 3,187,389         3,132,731           (54,659)           7.56              2
     Nevada-Sierra             2,524,057         2,477,263           (46,794)           7.73              4
     Baltimore                 2,994,891         2,948,931           (45,960)           7.71              6
     Northern Ohio             7,146,734         7,104,906           (41,828)           7.39              1
     Alabama                   2,512,329         2,472,641           (39,688)           7.12              1
     Fort Worth                2,927,708         2,895,445           (32,263)           6.97              2
     Appalachian               1,564,797         1,542,768           (22,029)           6.94              1
     Total                    42,554,969        42,024,265          (530,703)           7.44             33
    Source: Enterprise Data Warehouse (EDW) and U.S. Postal Service Office of Inspector General (OIG) Analysis.

8
  Each excess route represents 2,424 hours, which is the time needed for one route over 1 year -- 303 delivery days
multiplied by 8 hours for FY 2011.
9
  Although our review identified opportunity to reduce an additional nine routes in the Santa Ana District, this district
has been very aggressive in reducing route structure and workhours resulting in the reduction of more than
600 routes in the last 3.5 years.

                                                            2
City Delivery – Excess Routes                                                                        DR-AR-12-002




Furthermore, over the course of 1 year, workloads vary based on mail volume and
workhours are expected to mirror the workloads.10 Ideally, the workload fluctuations
over the course of 1 year will balance close to the planned workhours. However,
continual use of fewer than projected hours indicates excess capacity and an
opportunity to reduce costs. We analyzed the projected versus the actual street hours
for the last 3 fiscal years in these 10 districts and determined these districts have
consistently used fewer hours than projected, creating a negative street variance (see
Table 2).

                    Table 2. Negative Street Variance for FYs 2009 – 2011
                     District                    FY 2009           FY 2010          FY 2011
                     Greater Boston             (108,594)         (149,773)         (67,527)
                     Triboro                     (36,234)          (28,561)         (77,648)
                     Baltimore                   (85,453)          (55,358)         (45,960)
                     Appalachian                 (21,358)          (15,394)         (22,029)
                     Alabama                     (33,267)          (18,535)         (39,688)
                     Tennessee                   (29,873)          (43,995)         (54,659)
                     Northern Ohio               (90,012)          (39,175)         (41,828)
                     Fort Worth                  (71,922)          (42,209)         (32,263)
                     Nevada-Sierra               (46,237)          (23,677)         (46,794)
                     Santa Ana                   (39,923)          (81,810)        (102,308)
                     Total                      (562,873)         (498,486)        (530,703)
                     Source: EDW and OIG Analysis.

Excess capacity or routes existed in these districts for the following reasons:

    Headquarters, area, and district management stated they were not concerned with
     districts using fewer than projected street hours. Further, some officials initially
     stated that using fewer street hours than projected was an indication these districts
     were efficient. In most cases, using fewer actual hours than projected is considered
     positive and an efficient street performance.

    Excess capacity in the 10 districts also existed because district management was
     not always able to eliminate or consolidate routes. Specifically, the adjustment
     process required district management to negotiate with the union to adjust or
     eliminate routes.11 Management indicated these negotiations did not always result in
     adjusting, consolidating, or eliminating routes, therefore, making the projected hours
     more than needed for street delivery.

    Managers also informed the OIG they had little to no say in what happened with
     route adjustments. For example, one manager indicated they could eliminate
     10 routes or more in one location because the manager was consistently using
     fewer hours than projected for street delivery. However, negotiations with the union

10
   To offset periods of increased workload, the periods of decreased workload combined with the effective use of
management tools, such as pivoting, can result in a negative street variance, or undertime.
11
   Memorandum of Understanding (MOU) between the U.S. Postal Service and the National Association of Letter
Carriers; Joint Alternate Route Adjustment Process (JARAP), March 22, 2011.

                                                         3
City Delivery – Excess Routes                                                                        DR-AR-12-002



     only allowed the station to remove one route. Also, in another case, a district official
     indicated the union did not agree to any of the route adjustments the district
     submitted.12 Headquarters management informed us they are continually monitoring
     the route adjustment process and making changes where necessary.

In our discussions with district officials, they agreed with the OIG’s conclusion that their
districts have excess capacity and routes that should be eliminated. Management
further stated this was an area for improvement by reviewing route and unit
performance to eliminate routes consistently using less than the projected hours.
Several districts also informed the OIG they had begun to eliminate routes at the units
we reviewed in this audit.

City and rural delivery could both benefit by reducing these excess city routes. In city
delivery, most routes are assigned a postal-owned delivery vehicle. In the national labor
agreement between the Postal Service and the National Rural Letter Carriers’
Association, the Postal Service agreed to provide 15,000 vehicles for rural routes during
the period January 1, 2009, through December 31, 2013. As of pay period 2, FY 2012,
the Postal Service was obligated to transfer 5,804 additional vehicles to rural delivery.
As stated earlier in our report, the 10 districts have 33 excess city routes with assigned
vehicles. Therefore, 33 vehicles can be transferred from the eliminated city routes to
rural delivery in these districts.

An increased focus on improving the route and street management process by
eliminating excess city routes and transferring the associated vehicles could reduce
rural delivery EMA operating costs by $250,110 annual discounted savings or
$500,220 over 2 years.

Other Issues

Physical access control and safeguarding of assets required additional management
attention. Specifically, at two13 of the units visited, stamp stock inventory or cash was
not properly safeguarded and, at one of the locations, the rear entry access door to the
facility was not locked. Additionally, safes were not locked properly at either location.14
Two of the safes contained stamp stock inventory valued of $45,912.11. Physical
access controls reduce the security risk to Postal Service employees while safeguarding
controls reduces the potential for loss or misappropriation of assets. 15 We brought
these control issues to the attention of station managers, supervisors, or other
personnel who took immediate action to correct the situation. As a result, we are making
no recommendations on these issues.



12
   Many route adjustments were made using carrier demonstrated ability (how the carrier had been performing on a
daily basis without supervision) instead of the more accurate observation on the route.
13
   We judgmentally selected six sites to evaluate the physical security and safeguarding of assets.
14
   Safes are required to be locked except when authorized personnel are getting safe contents for use.
15
   Assets or accountable items at risk - assets or accountable items (for example, cash, stamps, and money orders)
that are at risk of loss because of inadequate internal controls.



                                                         4
City Delivery – Excess Routes                                                   DR-AR-12-002



Recommendations

We recommend the district managers:

1. Eliminate 33 excess city delivery routes in their respective districts.

2. Review delivery units consistently using fewer than projected street hours to make
   appropriate route adjustments, eliminations, and consolidations.

3. Reallocate the 33 assigned Postal Service-owned delivery vehicles from the
   eliminated city routes to rural routes to achieve an associated economic impact of
   $250,110 annual discounted savings or $500,220 over 2 years.

Management’s Comments

All of the districts agreed with the findings, recommendations, and monetary impact.

In response to recommendation 1, management agreed to reduce excess city delivery
routes and make applicable changes by May 31, 2013. Management stated they
conducted or planned to conduct formal route inspections to eliminate the routes
indicated in the finding.

In response to recommendation 2, management in all the districts agreed it is important
to monitor all units and review delivery units using fewer than projected street hours and
make appropriate adjustments. Management stated they are conducting trend analysis,
weekly teleconferences, and route inspections to close the gap on route variances.
They plan to complete these actions by May 31, 2013.

In response to recommendation 3, management in the 10 districts stated by eliminating
city delivery routes, delivery vehicles would be relocated within their districts for rural
use or transferred to another district within their area for rural use by June 30, 2013.
See Appendix D for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                             5
City Delivery – Excess Routes                                                      DR-AR-12-002




                                Appendix A: Additional Information

Background

The Postal Service faces the most difficult operating period in its 235-year history. Mail
volume in FY 2011 declined by 3 billion pieces to 168 billion, dropping total mail volume
to levels not seen since 1992. Since 2007, mail volume has dropped by about 44 billion
pieces. The Postal Service must improve operational efficiency to reduce costs while
facing financial losses from declining mail volumes.

Delivery operations are the highest fixed cost in the system, making up more than
30 percent of the Postal Service’s operating expenses. Within the delivery carrier’s
function, street operations make up 264,989,254 workhours, which is more than
76 percent of the overall 349,564,154 total office and street workhours 16 city carriers
used in FY 2011.

The Postal Service has 204,56017 full-time carriers who are guaranteed 8 hours a day
— about 2 hours in the office and 6 hours on the street. Because of the significant
decline in mail volume over the last 4 years, many carriers do not have a full 8-hour
work day. A carrier’s base street time is determined by street observation or by the
average street time a carrier puts in over 7 weeks.18 This information is put into the
DOIS as the projected19 street time for the route. When a carrier performs better or
worse than the established street time, a variance occurs. If a carrier finishes a route
earlier than expected, a negative variance occurs. Managers can manage the
variances by adjusting the routes.

Management adjusts routes using the JARAP and, as part of this process, use the
Carrier Optimal Routing (COR) System. The JARAP is based on an agreement between
the Postal Service and the National Association of Letter Carriers to evaluate and adjust
city delivery routes through a joint expedited evaluation and adjustment process. The
agreement intends that both parties evaluate routes and agree on how and where
routes will be adjusted. COR is a computer modeling program that uses data to
objectively configure compact, contiguous routes and determine safe, efficient travel
patterns while reducing workhours.




16
   Delivery Operations Information System (DOIS) workhours queried from the EDW.
17
   This number was obtained from the EDW.
18
   Postal Service Handbook M-39, Management of Delivery Services.
19
   Projected street hours are hours the put in DOIS based on street reviews.

                                                      6
City Delivery – Excess Routes                                                                        DR-AR-12-002



Objective, Scope, and Methodology

Our objective was to assess districts20 using fewer street hours than projected. To
accomplish our objective, we:

      Reviewed documentation and applicable policies and procedures guiding city
       delivery, Handbook M-39, and Handbook M-41.21 We also reviewed the labor
       agreements, the MOU between the Postal Service and the National Association of
       Letter Carriers, JARAP 2011, and MOU between the U.S. Postal Service and the
       National Rural Letter Carriers’ Association: Right-Hand Drive Vehicles.

      Obtained and reviewed data from EDW and DOIS to analyze 10 districts to
       determine the negative variance and develop trends. We documented planned and
       actual street hours. We also judgmentally selected two of the 10 districts with
       negative street variances in excess of 30,000 hours and judgmentally selected units
       within these two districts to observe operations and analyze route management.

      Reviewed procedures for route and street operations, discussed operations with
       management, and reviewed documentation related to identifying potential
       opportunities for eliminating or consolidating routes.

      Identified the number of postal-owned vehicles that might be transferred to rural
       routes, if excess city routes are eliminated.

      Calculated projected cost savings for postal-owned vehicles that could be
       transferred to rural routes based on EMA paid to rural carriers for the use of privately
       owned vehicles. We computed overall savings based on FY 2011 data (see
       Appendix B for Monetary Impact).

We conducted this performance audit from November 2011 through June 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on March 19, 2012, and included their
comments where appropriate.

We relied on data obtained from Postal Service database systems, such as DOIS and
EDW. We did not directly audit the systems but performed a limited data integrity review
to support our data reliance. We determined that the data were sufficiently reliable for
the purposes of this report.

20
  We reviewed all districts with a cumulative negative street variance. We removed those being reviewed in other
OIG audits to prevent duplication or if they had less than 30,000 hours of total negative variance.
21
     Handbook M-41, City Letter Carrier Duties and Responsibilities.

                                                            7
City Delivery – Excess Routes                                    DR-AR-12-002




Prior Audit Coverage

We did not identify any prior audits related to our objective.




                                             8
City Delivery – Excess Routes                                                                          DR-AR-12-002



                                     Appendix B: Monetary Impact

     We estimated the monetary impact of $500,220 in funds put to better use by
     eliminating 33 routes and transferring the associated vehicles to rural routes.

              Finding                           Impact Category                              Amount
         Operating Efficiency               Funds Put to Better Use22                       $500,220
      Source: OIG.

     This amount is based on the reduction of vehicles for each of the associated
     33 routes, at a cost of $250,110 annual discounted savings over for 2 years using
     cash flow methodology (see Table 3). The transfer of vehicles from city delivery can
     reduce rural delivery costs of EMA paid to rural carriers that are currently using
     personal vehicles. In addition to the savings, this action will assist in meeting labor
     agreement obligations to provide vehicles to the National Rural Letter Carriers
     Association by 2013.

                  Table 3: Estimated Savings from Vehicles Transferred to
                                       Rural Routes
                                       City Delivery Vehicles
                                       for Transfer to Rural
                  District                    Routes                   Annual EMA Savings23
         Alabama                                                 1                        $8,484
         Appalachian                                             1                          8,484
         Baltimore                                               6                        50,904
         Fort Worth                                              2                        16,968
         Greater Boston                                          5                        42,420
         Nevada-Sierra                                           4                        33,936
         Northern Ohio                                           1                          8,484
         Santa Ana                                               9                        76,356
         Tennessee                                               2                        16,968
         Triboro                                                 2                        16,968
         Total                                                  33                     $279,97224
         Source: EDW and OIG Analysis.




22
   Funds that could be used more efficiently by implementing recommended actions.
23
   We calculated the cost savings for each route by multiplying $28 for the EMA with 303 delivery days in a year.
24
   This number is reduced to $250,110 annually, using the cash flow reduction methodology.

                                                          9
City Delivery – Excess Routes                                                DR-AR-12-002



                          Appendix C: Excess Routes and Vehicles

                                                                  Excess Routes
              District                   Delivery Unit             and Vehicles
         Alabama                 Florence Main Post Office              1
         Appalachian             Martinsville Main Post Office          1
                                 Annapolis Destination Delivery
         Baltimore               Unit                                  2
         Baltimore               Dundalk Sparrows Point                1
         Baltimore               Frederick                             1
         Baltimore               Pasadena                              1
         Baltimore               Westminster                           1
                                 Fort Worth North Carrier
         Fort Worth              Annex                                 1
         Fort Worth              Lubbock Downtown Station              1
         Greater Boston          Framingham                            1
         Greater Boston          Marlborough                           1
         Greater Boston          Porter Square                         1
         Greater Boston          Woburn                                2
         Nevada-Sierra           Las Vegas Sunrise Station             1
                                 North Las Vegas Main Post
         Nevada-Sierra           Office                                1
                                 North Las Vegas Meadow
         Nevada-Sierra           Mesa Station                          1
         Nevada-Sierra           Sparks, Main Post Office              1
         Northern Ohio           Lyndhurst/Mayfield                    1
         Santa Ana               Chino Main Post Office                1
         Santa Ana               Diamond Bar Station                   1
         Santa Ana               Irvine Main Post Office               1
         Santa Ana               Long Beach Downtown Station           2
         Santa Ana               Long Beach Loma Station               1
         Santa Ana               Paramount Main Post Office            1
         Santa Ana               Pomona Main Post Office               1
         Santa Ana               Santa Ana Diamond Station             1
         Tennessee               Memphis: Desoto/Front                 2
         Triboro                 Jamaica Main Post Office              1
                                 Long Island City Main Post
         Triboro                 Office                                 1
         Total                                                         33
        Source: OIG Aanalysis.




                                              10
City Delivery – Excess Routes                                  DR-AR-12-002




                           Appendix D: Management’s Comments




                                          11
City Delivery – Excess Routes        DR-AR-12-002




                                12
City Delivery – Excess Routes        DR-AR-12-002




                                13
City Delivery – Excess Routes        DR-AR-12-002




                                14
City Delivery – Excess Routes        DR-AR-12-002




                                15
City Delivery – Excess Routes        DR-AR-12-002




                                16
City Delivery – Excess Routes        DR-AR-12-002




                                17
City Delivery – Excess Routes        DR-AR-12-002




                                18
City Delivery – Excess Routes        DR-AR-12-002




                                19
City Delivery – Excess Routes        DR-AR-12-002




                                20
City Delivery – Excess Routes        DR-AR-12-002




                                21
City Delivery – Excess Routes        DR-AR-12-002




                                22
City Delivery – Excess Routes        DR-AR-12-002




                                23
City Delivery – Excess Routes        DR-AR-12-002




                                24
City Delivery – Excess Routes        DR-AR-12-002




                                25
City Delivery – Excess Routes        DR-AR-12-002




                                26
City Delivery – Excess Routes        DR-AR-12-002




                                27
City Delivery – Excess Routes        DR-AR-12-002




                                28
City Delivery – Excess Routes        DR-AR-12-002




                                29
City Delivery – Excess Routes        DR-AR-12-002




                                30
City Delivery – Excess Routes        DR-AR-12-002




                                31
City Delivery – Excess Routes        DR-AR-12-002




                                32
City Delivery – Excess Routes        DR-AR-12-002




                                33
City Delivery – Excess Routes        DR-AR-12-002




                                34
City Delivery – Excess Routes        DR-AR-12-002




                                35
City Delivery – Excess Routes        DR-AR-12-002




                                36
City Delivery – Excess Routes        DR-AR-12-002




                                37
City Delivery – Excess Routes        DR-AR-12-002




                                38
